             EVALUATION OF
       PROGRAM IMPLEMENTATION
      ILAB’S CHILD LABOR PROJECTS
               FYs 1995-2000




BUREAU OF INTERNATIONAL LABOR AFFAIRS

______________________________________________________
                                                                                                Report No. 2E-01-070-0001
                                                                                           Date Issued: September 28, 2000


                                               TABLE OF CONTENTS




ACRONYMS AND GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

     1. Project Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

     2. Project Goals, Objectives and Indicators . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     3. Project Inspection Allegations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

     4. Project Sustainability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

     5. Other Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

EXHIBITS

     Exhibit 1 - Universe of ICLP Projects FY 1995 through 2000 . . . . . . . . . . . . . . . . . . . . . . . . . 18

     Exhibit 2 - ICLP’s General Guidelines for Review of
                  Project Documents in FY 2000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

APPENDIX

     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                                ACRONYMS AND GLOSSARY



                                            ACRONYMS

AAFLI                -          Asian-American Free Labor Institute

BGMEA                -          Bangladesh Garment Manufacturers and Exporters Association

ETA                  -          Employment and Training Administration

ILAB                 -          Bureau of International Labor Affairs

ICLP                 -          International Child Labor Program

ILO                  -          International Labor Organization

IPEC                 -          International Program on the Elimination of Child Labor

MOU                  -          Memorandum of Understanding

OASAM                -          Office of the Assistant Secretary for Administration and Management

USDOL                -          United States Department of Labor


                                        GLOSSARY

Child Labor - Any economic activity performed by a person under fifteen. The term “child labor”
              usually refers to children performing work which is exploitative or detrimental to their
              development and generally does not include certain types of light work performed by
              children part-time, or legitimate apprenticeship opportunities.




                                                    i
                                      EXECUTIVE SUMMARY

We conducted an evaluation of the Bureau of International Labor Affairs’ (ILAB) implementation of its
child labor projects. Our evaluation covered the period FYs 1995 through 2000. The evaluation was
designed to provide information on lessons learned from the FYs 1995 through 2000 implementation of
child labor projects, and recommendations for any necessary improvements in ILAB’s current child
labor activities.

ILAB’s responsibilities include conducting research and reporting on international child labor,
administering grants to organizations engaged in efforts to eliminate child labor, and working to raise
public awareness and understanding of the child labor issue.


 RESULTS OF EVALUATION

Based on our evaluation, ILAB appears to be making significant progress toward effective
implementation of its child labor projects. Although progress is being made, we identified several areas
where implementation of our recommendations will further increase ILAB’s effectiveness in carrying out
its high-impact programs designed to eliminate child labor worldwide.

FINDING 1 - PROJECT PLANNING

ILAB’s International Child Labor Program (ICLP) can improve overall project effectiveness and
results by adopting a two-stage funding process. ICLP should first fund and conduct a needs and
requirements assessment of the target population. ICLP should then use the information from the needs
and requirements assessment to determine appropriate funding for implementation of the child labor
elimination project.

Based on our review of ICLP project files for the period FYs 1995 through 2000 and our discussions
with ICLP officials, we determined that ICLP funds and implements child labor elimination projects
without first identifying the specific needs and requirements of the target populations.

FINDING 2 - PROJECT GOALS, OBJECTIVES AND INDICATORS

While the ICLP child labor projects we examined have shown some success, based on our review of
the project files and discussions with ICLP officials, it is difficult to determine the impact or level of
success of the projects.

Our review of a sample of ICLP’s projects implemented during the period FYs 1995 through 1999
disclosed that, in many instances, the goals, objectives and indicators were not specific nor were they
adequately defined. As a result, it is difficult to comprehensively assess the benefits or outcomes


                                                     ii
attained from the results that were generated.
FINDING 3 - PROJECT INSPECTION ALLEGATIONS

One of the cornerstones of several of ICLP’s child labor elimination projects is that inspections are
conducted to verify that children have been removed from and not returned to targeted industries. The
inspections serve to validate many of ICLP’s reported results.

Allegations were received by ICLP regarding its inspection and verification system. It is not our intent
to assess the validity of the allegations. Instead, we focused on ICLP’s response to the allegations.
We believe that ICLP can improve on: (1) its response to allegations received, (2) its followup on
allegations, and (3) documenting its response and followup. There is very little information in the
project files documenting the steps taken by ICLP in response to the allegations.

FINDING 4 - PROJECT SUSTAINABILITY

We found that, overall, ICLP does a good job in delineating the roles of its partners in attempting to
achieve project sustainability. However, ICLP can go a step further by obtaining written agreements
from its project partners, which we believe will only enhance the probability that the partners will
uphold their responsibilities. Having a written agreement increases the likelihood that the partners will
commit to continuing the goals of the project once ICLP funding expires. A project is sustainable when
a country or community is able to continue the goals and objectives of the project on its own without
outside support.

FINDING 5 - OTHER MATTERS

ICLP officials provided us a copy of draft General Guidelines for Review of Project Documents, last
revised July 25, 2000. (See Exhibit 2.) According to these officials, the purpose of the General
Guidelines is to provide criteria for ICLP staff use in their review of project documents. Further, these
officials told us that the Guidelines is a living document which is in the process of being revised and
improved. While we commend ICLP for initiating the development of these draft guidelines, we believe
that ICLP should expand and strengthen the guidelines into an operations manual for staff use.
Following are a few suggestions.

        1. Incorporate our recommendations in the guidelines.
        2. State the overall purpose of the guidelines.
        3. Specify the roles of ICLP and ILO (and any other partners) for using the guidelines. The
           guidelines are very vague and confusing regarding the respective roles. There is little
           information regarding ICLP’s role in matters such as:
           a. Project proposal review and approval.
           b. Site visits and ICLP monitoring.
        4. Be consistent and clear in the use of terminology. In many instances, language is used
           interchangeably with several different meanings. For example, project management and

                                                    iii
           management structure are used interchangeably. ICLP may need to expand on its
           definitions section to provide clarification to terms.
Considering the fact that ICLP is in the process of hiring additional staff, we believe that clear,
comprehensive guidelines are needed to increase overall ICLP staff efficiency and effectiveness.


 RECOMMENDATIONS

1.      We recommend that ICLP adopt a two-stage funding process. ICLP should:

        a. Fund and conduct a needs and requirements assessment of the target population.
        b. Use the information from the needs and requirements assessment to determine appropriate
           funding for implementation of the child labor elimination project.

2.      We also recommend that ICLP ensure that specific, well-defined outcomes oriented goals,
        objectives and indicators are developed and included for each project proposal.

3.      With respect to project inspection allegations, we recommend that ICLP:

        a. Thoroughly investigate and follow-up on all serious allegations.
        b. Implement appropriate corrective actions.
        c. Adequately document steps taken.

4.      In addition, we recommend that ICLP obtain written agreements from project partners which
        clearly delineate each partner’s role in capacity building and project sustainability.

5.      Finally, ICLP should expand and strengthen the draft General Guidelines into an operations
        manual for staff use.


 AGENCY COMMENTS

As ILAB indicated in its earlier comments, the OIG report does not appear to make clear how
ILAB funds its international child labor projects. ILAB does not, as the report appears to
consistently state, implement child labor projects directly. Rather, ILAB currently provides
funding to the International Labor Organization’s (ILO) International Program on the
Elimination of Child Labor (IPEC). IPEC assesses the extent and nature of child labor in
specific countries and implements projects aimed at removing children from hazardous work and
providing them and their families with viable alternatives to child labor. This essential context is
missing from the Executive Summary and the body of the report. Consequently, the roles of
ILAB and IPEC are misrepresented throughout the report.



                                                    iv
In their previous comments, ILAB requested that the Executive Summary be revised to fully
reflect the situation. As currently written, it does not make clear the relative roles of ILAB and
IPEC, nor does it provide information regarding the steps taken by ILAB’s International Child
Labor Program (ICLP) to increase staffing to manage child labor projects and enhance
management and organizational controls.
ILAB also requested that the OIG withdraw the recommendation and finding on project
planning (Recommendation and Finding #1) and reconsider the finding and recommendation on
project inspections (Finding #3), taking into consideration information provided to the OIG
Evaluation Office on August 31, 2000.


 OIG’s RESPONSE

We disagree with ILAB’s contention that the roles of ILAB and IPEC are misrepresented throughout
the report. The background section of the report clearly delineates the roles of both ILAB and IPEC.
While we agree that IPEC assesses the extent and nature of child labor in specific countries and
implements projects aimed at removing children from hazardous work, we believe that overall
responsibility for the efficiency and effectiveness of DOL’s international child labor programs rests with
ILAB. It is for this reason that we refer to ILAB when we discuss the overall effectiveness of the
international child labor projects and any suggested recommendations.

We are not withdrawing our finding and recommendation on project planning. Based on our review of
ICLP project files, we determined that ILAB was continuing to fund and implement its child labor
elimination projects without first identifying the specific needs and requirements of the target
populations. When this issue was brought to ILAB’s attention by the OIG, ILAB told us that
discussions had been held to change this practice and that, for future projects, needs assessments would
be conducted prior to funding and implementation of its projects. Despite several requests, ILAB did
not provide any documentation which demonstrated that ILAB was aware of this issue prior to being
notified by the OIG. ILAB subsequently held meetings with the ILO and reached agreement that, for
future projects, needs and requirements would be identified prior to project funding and
implementation. We commend ILAB for taking steps to implement new procedures for conducting
baseline studies prior to project development and funding.

Our finding and recommendation on project inspections (Finding #3) remains unchanged. We have
carefully considered the additional information provided by ILAB on August 31, 2000, and continue to
believe that ICLP can improve on: (1) its response to allegations received, (2) its followup on
allegations, and (3) documenting its response and followup.

                                             - - - - - -

A summary of ILAB’s response to each finding, as well as our comments, are included in the findings


                                                    v
and recommendations section of this report. ILAB’s complete written response is attached as
Appendix A.




                                                 vi
                                            BACKGROUND

The Bureau of International Labor Affairs (ILAB) carries out the Department of Labor’s international
responsibilities under the direction of the Deputy Under Secretary for International Affairs, and assists
in formulating international, economic, trade and immigration policies affecting American workers.

ILAB’s International Child Labor Program (ICLP) was created in response to a direct request from
Congress to investigate and report on child labor around the world. Between fiscal years 1995 and
2000, Congress appropriated about $68 million to ILAB for international child labor activities. As
shown by the following chart, ICLP funding increased tenfold between FYs 1998 and 1999.




As domestic and international concern about child labor has grown, ICLP’s programs and activities
have significantly expanded. Today, these activities include continued research and reporting on
international child labor, administering grants to organizations engaged in efforts to eliminate child labor,
and working to raise public awareness and understanding of the child labor issue. Since 1995, ICLP
has contributed close to $37 million to the International Labor Organization’s International Program on
the Elimination of Child Labor (IPEC). These funds support projects to remove tens of thousands of
children in Africa, Asia, and Latin America from exploitative work, place them in schools, and provide
their families with alternative income-generating opportunities. ICLP is also funding child labor surveys
in various countries, enabling new countries to benefit from IPEC’s technical assistance, and supporting
IPEC efforts to raise awareness about child labor around the world.




                                                      1
DOL’s Office of the Assistant Secretary for Administration and Management (OASAM) provides
necessary procurement, financial, budget, contract/grant award and administrative support to ILAB to
ensure the effective and efficient implementation of its child labor programs.




                                                  2
                                PURPOSE AND METHODOLOGY


  PURPOSE

 The purpose of this review was to evaluate the Bureau of International Labor Affairs’ (ILAB)
 international child labor projects implemented by the International Labor Office (ILO) from FYs 1995
 through 2000 and derive lessons learned from these projects. Specifically, we examined the following
 questions:

        (1)     What results have the projects achieved?

        (2)     How were those results achieved?

        (3)     How has the ILO measured those results?

        (4)     If project evaluations have been conducted, to what extent has ILAB incorporated
                recommendations from these evaluations in subsequent projects?

The evaluation will provide: (1) information on lessons learned from the FYs 1995 - 2000
implementation of child labor projects, and (2) recommendations for any necessary improvements of
ILAB’s current child labor activities.


 METHODOLOGY

Our methodology included an examination of ICLP project file documents for the period FYs 1995
through 2000 and information provided by ICLP officials. We selected a judgmental sample of 19
projects for review from a universe of 39 child labor projects. (Exhibit 1 is the list of the 39 child labor
projects identified by ICLP as the universe.)

An entrance conference was held with ILAB and OASAM officials on June 1, 2000. Field work was
conducted at ICLP’s offices at the Frances Perkins Building in Washington, D.C. Several meetings
were held with ICLP officials to discuss the results of our review.

We conducted our review in accordance with the Quality Standards for Inspections published by the
President’s Council on Integrity and Efficiency.




                                                     3
                            FINDINGS AND RECOMMENDATIONS


 FINDING 1 - PROJECT PLANNING

ILAB’s International Child Labor Program (ICLP) can improve overall project effectiveness and
results by adopting a two-stage funding process. ICLP should first fund and conduct a needs and
requirements assessment of the target population. ICLP should then use the information from the needs
and requirements assessment to determine appropriate funding for implementation of the child labor
elimination project.

Based on our review of ICLP project files for the period FYs 1995 through 2000 and our discussions
with ICLP officials, we determined that ICLP funds and implements projects without first identifying the
specific needs and requirements of the target populations.

An example is ICLP’s Brazil Shoe Industry Project which, according to ICLP officials, was funded
during FY 1995 in the amount of $308,958. A project plan was developed which identified: (1) target
groups, (2) objectives, (3) outputs, and (4) main activities, without first identifying the needs and
requirements of the target population. According to the project plan, statistics on child labor in the
Brazil Shoe Industry were not available. The project followed a two-phased strategy: during the first
phase, surveys were conducted to increase general information on child labor in the shoe industry.
Simultaneously, the situation of the children working in the shoe industry would be improved through
negotiations with the owners of the work shops and an increase of their motivation to assume a moral
commitment to protect the children working for them. During the second phase, selected groups of the
children concerned were enrolled in or returned to regular schools through further conscientization of
the families and providing the children with complementary educational services.

It is unclear how ICLP arrived at the stated goals of the project plan or the funding amount, absent
specific, identifiable needs and requirements of the target population.

Another example is ICLP’s Project on Combating Child Labor in the Coffee Industry of Central
America and the Dominican Republic which was funded during FY 1999 in the amount of $1,169,503.
Similar to the Brazil project, a project plan was developed which identified
(1) objectives, (2) outputs, and (3) activities without first identifying the needs and requirements of the
target population. According to the project plan, a baseline survey would be conducted during the first
3-4 months of the project. The data from the baseline survey would be used to design the social
protection programs (education, health and recreation, income-generation) in consultation with potential
program partners and selected families.

Again, it is unclear how ICLP arrived at the stated goals of the project plan or the funding amount,
absent specific, identifiable needs and requirements of the target population.

                                                     4
In the above described process, a project plan is developed prior to completing a needs and
requirements assessment. The project plan includes stated goals and objectives which, according to
ICLP, are sometimes modified upon the subsequent completion of a baseline study. We believe that
conducting a needs and requirements, prior to the funding and implementation of the project, will not
only assist ICLP in identifying the specific needs and requirements of the target population, but will also
streamline the process by eliminating some of the subsequent modifications.

A good example where needs and requirements are identified prior to the award of a project is the
Employment and Training Administration’s (ETA) Welfare-to-Work program. The first criterion in
ETA’s review of grant applications is the identification of a relative need for assistance. This criterion
requires that factual evidence related to the target population be provided and evaluated by ETA’s
Grant Officer prior to award of the grant.1

During meetings held on June 30 and July 20, 2000, ICLP officials agreed that needs and requirements
assessments should be completed prior to funding and implementation of projects. ICLP officials told
us that they have discussed, for those projects beginning in FY 2001, completing needs and
requirements assessments prior to the funding and implementation.

We believe that identifying the needs and requirements of the target population prior to project funding
and implementation can improve overall project effectiveness and results.


 AGENCY COMMENTS

The OIG Evaluation Office neither identified this issue nor contributed a solution and the
recommendation was already being implemented. ILAB provided the OIG with information
documenting the fact that ICLP had already started to implement this recommendation. During
meetings with ILO on August 9-11, 2000, DOL and the ILO reached formal agreement that
starting with fiscal year 2001, there would be a two-stage funding process for projects requiring
baseline information. Under this agreement, IPEC will submit a separate proposal to DOL for
project development, including baseline surveys. Accordingly, baseline data on target
populations will first be collected and analyzed, then used as the basis for project development
and budgeting.


 OIG’s RESPONSE

As previously stated, based on our review of ICLP project files, we determined that ILAB was


        1
         Federal Register/Volume 63. No. 72/Wednesday, April 15, 1998/Notices/Page 18449

                                                     5
continuing to fund and implement its child labor elimination projects without first identifying the specific
needs and requirements of the target populations. When this issue was brought to ILAB’s attention by
the OIG on June 29, 2000, ILAB told us that discussions had been held to change this practice and
that, for future projects, needs assessments would be conducted prior to funding and implementation of
its projects. Despite several requests, ILAB did not provide any documentation which demonstrated
that ILAB was aware of this issue prior to being notified by the OIG.

On September 5, 2000, ILAB provided a two page excerpt from what ILAB stated was an agreement
reached between ILO and ILAB during meetings held August 9-11, 2000. According to ILAB, under
this agreement, IPEC will submit a separate proposal to DOL for project development, including
baseline surveys. According to the two page excerpt, baseline data on target populations will first be
collected and analyzed, then used as the basis for project development and budgeting.

We commend ILAB for taking steps to implement new procedures for conducting baseline studies
prior to project development and funding.

We consider this recommendation to be resolved. The recommendation will be closed pending receipt
of the entire official formal agreement reached between ILAB and ILO during the August 9-11 meeting.
Please provide the requested written documentation to this office by
October 27, 2000.


 Recommendation

 1. We recommend that ICLP adopt a two-stage funding process. ICLP should:

     a. Fund and conduct a needs and requirements assessment of the target population.
     b. Use the information from the needs and requirements assessment to determine appropriate
        funding for implementation of the child labor elimination project.




                                                     6
 FINDING 2 - PROJECT GOALS, OBJECTIVES AND INDICATORS

While the ICLP child labor projects we examined have shown some success, based on our review of
the project files and discussions with ICLP officials, it is difficult to determine the impact or level of
success of the projects.

Projects Need to Have Clearer Goals, Objectives, and Indicators

Our review of a sample of ICLP’s projects implemented during the period FY95 through FY99
disclosed that, in many instances, the goals, objectives and indicators were neither specific nor were
they adequately defined. As a result, it is difficult to comprehensively assess the benefits or outcomes
attained from the results that were generated. Following are a few illustrative examples.

Example 1. ICLP’s Project on the Elimination and Prevention of Child Labor in Bangladesh Garment
Manufacturers and Exporters Association (BGMEA) Factories. The stated objectives include items
such as:

   1. Withdrawal from work in the garment factories and enrollment in educational programs of
      around 10,000 children under 14 years.
   2. Contribute to the elimination of child labor in Bangladesh’s garment industry through the
      monitoring of employment in enterprises and by encouraging children to accept education as a
      substitute for employment.
   3. Increased awareness within and outside Bangladesh on the purpose, progress and
      achievements of the monitoring and verification system.

Clearly, there were some significant results achieved -- a Memorandum of Understanding (MOU) was
established with BGMEA to remove underage children from garment industry factories and 10,546
children were enrolled in educational programs. However, goals, objectives and indicators need to be
specific, measurable and time bound. Simply stating that 10,546 children were enrolled in educational
programs does not allow for a complete assessment of the benefits received by these children. How
long were the children enrolled in educational programs? Were any of these children simultaneously
employed in child labor? Why did many of these children drop out of the educational programs? What
happened to these children in the short-term? What happened to these children in the long-term?
Answering questions such as these would allow for a more comprehensive assessment of ultimate
benefits or outcomes attained.

Example 2. ICLP’s Project on the Elimination of Child Labor in Uganda. The indicators listed for this
project include items such as:

   1. A number of innovative strategies to combat or prevent the incidence of child labor developed


                                                     7
      by social partners within their fields of expertise.
   2. An effective national policy and plan of action against child labor operationalized.
   3. Labor inspectors undertaking visits to monitor incidences of child labor.
   4. National employers and workers organizations mainstreaming child labor into their regular work
      plans, activities and budgets.

As previously stated, goals, objectives and indicators need to be specific, measurable and time bound.
In our view, the impact of the program could be better assessed if the above indicators were designed
to measure impact and/or were better defined. For instance, ICLP needs to do a better job of
explaining what does innovative strategies mean? How will they be accomplished? What will be
accomplished? When will they be accomplished?

Example 3. ICLP’s Project on Combating Child Prostitution in Costa Rica. The expected outputs for
this project include such items as:

   1. Approximately 200 children prevented from engaging in prostitution; 200 children withdrawn
      and rehabilitated from prostitution.
   2. Families and community leaders sensitized to the dangers of child prostitution and capacitated
      to take action against the problem.
   3. Experience and lessons learned from this project will be presented at the national level to devise
      further strategies for action at the national level.

These are just a few examples of ICLP projects where goals, objectives and indicators were neither
specific nor adequately defined.

There are ICLP projects for which goals, objectives and indicators are more adequately defined. For
example, ICLP’s National Program on the Elimination of Child Labor in Nigeria includes goals,
objectives and indicators such as a monitoring database established with all necessary information about
the workplaces and child workers directly benefitting from the ICLP program in order to monitor their
progress and ensure that the 3,000 (ex) child workers do not return to exploitative work situations.

We believe that ICLP needs to ensure that all of the child labor elimination projects include specific,
well-defined goals, objectives and indicators in order to provide focus and direction to the projects, and
to measure ultimate impact.


 AGENCY COMMENTS

ILAB agrees with OIG’s recommendation that more specific, well-defined goals, objectives, and
indicators should be included in ILAB-funded child labor projects, and ILAB is working closely
with the ILO to continuously improve in this area. ILAB’s ability to measure project impact will


                                                    8
be further improved with the inclusion of additional measurable indicators and tracking/
monitoring mechanisms to determine the status of the target population at any given point of
project implementation. ILAB has also been working, with OASAM, to apply GPRA principles at
the project level by adopting more well-defined outcome goals linked to measurable project
indicators of success. In addition, ILAB has added experienced staff from the OIG to strengthen
its capacity to ensure that ILAB-funded child labor projects contain well-defined and outcome-
oriented goals, objectives and indicators.


 OIG’s RESPONSE

We consider this recommendation to be resolved. The recommendation will be closed pending the
issuance of ILAB’s General Guidelines/operations manual which includes a section on goals, objectives
and indicators. Please provide the requested written documentation to this office by December
22, 2000.


 Recommendation

 2. We recommend that ICLP ensure that specific, well-defined outcomes oriented goals, objectives
    and indicators are developed and included for each project proposal.




                                                  9
 FINDING 3 - PROJECT INSPECTION ALLEGATIONS

One of the cornerstones of several of ICLP’s child labor elimination projects is that inspections are
conducted to verify that children have been removed from and not returned to targeted industries. The
inspections serve to validate many of ICLP’s claimed results.

We believe that ICLP can improve on: (1) its response to serious allegations regarding its inspection
and verification system, (2) its followup on the allegations, and (3) documenting its response and
followup. There is very little information in the project files documenting the steps taken by ICLP in
response to the allegations.

Serious Allegations Regarding the Credibility of ICLP’s
Inspection and Verification Systems were Received

Allegations were made with regard to two ICLP projects--the project for the Elimination of Child
Labor in the Soccer Ball Industry in Pakistan and the project for Mainstreaming the Verification and
Monitoring System for the Elimination of Child Labor in Garment Factories in Bangladesh. The basic
premise of the allegations was that children were removed from work sites to avoid detection by
project monitors, and subsequently returned after the inspection and verification visits, casting doubt on
the reported successes of these ICLP child labor projects.

It is not our intent to assess the validity of the allegations. Instead, we focused on ICLP’s response to
the allegations. There is very little information in the project files documenting the steps taken by ICLP
in response to the allegations and any followup steps taken.

With regard to the Pakistan Project, there is documentation in the files indicating that ICLP did not
respond to the specific allegations point by point. Instead, ICLP chose to issue a mid-term report
which looked at the project in its entirety, including laying out where they started from, what their
expectations were, whether or not they had met these expectations so far, where they had found
problems and what they were doing to correct them, as well as an assessment of what else needed to
be done. We believe that ICLP should have specifically addressed and documented its response to the
issues contained in the allegations instead of simply stating how the system is designed to operate.

With regard to the Bangladesh project, there is evidence that steps were taken to address some of the
allegations received. However, for other allegations, there is no documentation that any steps were
taken. For example, there was an allegation from the AAFLI and the Bangladesh Independent
Garment Workers Union that there were additional violations of the MOU than those uncovered by the
inspectors. ICLP should have followed up to determine what the nature of the alleged violations were
and documented what was done to address the allegations.



                                                    10
In our view, the inspection and verification systems provide the cornerstone for the credibility of
reported project achievements and results. It is vital that serious allegations be thoroughly investigated
and followed-up on, and any appropriate corrective actions be implemented. Further, any steps taken
should be adequately documented.


 AGENCY COMMENTS

ILAB considers the credibility of the ILO’s monitoring system to be essential to the success of the
projects that are funded. ILAB agrees that each serious allegation requires follow up, and ILAB
has consistently made it a priority to treat all allegations seriously through appropriate forms of
follow up and documentation. Since some of the communication regarding the subject
allegations was by telephone, each and every step taken by ICLP staff to follow up on the
subject allegations may not have been documented.

However, it should not be assumed or implied that there was no follow up on the subject
allegations. For example, as ICLP explained to the OIG Evaluation Office, there was follow up
on the allegations regarding incidence of child labor in garment factories in Bangladesh and the
stitching of soccer balls in Pakistan through ongoing discussions with ILO staff in Geneva,
Dhaka, and Sialkot, review of project monitoring reports, as well as through project site visits.
These site visits include meetings with local NGOs (including those who made the subject
allegations), ILO monitors and project staff, and manufacturers. In addition, an ICLP staff
member traveled to Bangladesh to participate in a final evaluation meeting for the garment
project in June 2000. ICLP staff continues to thoroughly follow up on any new developments
relating to ILAB funded child labor projects, including any child labor violations, as well as steps
taken by the ILO to improve its monitoring system.

The OIG draft report initially focused on documentation of ICLP’s response to allegations made
regarding the monitoring systems of two IPEC projects–the soccer ball industry in Pakistan and
the garment industry project in Bangladesh. On August 31, ILAB provided the OIG Evaluation
Office with additional information from project files documenting follow up to allegations
relating to the soccer ball project in Pakistan. This information shows that ICLP staff requested
that the ILO seriously consider each of the allegations and prepare an appropriate response
addressing the concerns raised.

The ILO subsequently conducted a mid-term review of the project, addressing the allegations
and prepared a follow up letter with detailed comments responding to the specific
allegations–this information is available in the project files. ILO staff from Geneva traveled to
Pakistan to conduct the review along with project staff in Pakistan. In addition, ICLP staff
conducted two site visits to Pakistan since the publication of the subject allegations. These visits


                                                    11
included meetings with local NGOs, soccer ball manufacturers, and ILO and government
officials to review the status of the project, including the credibility of the monitoring system.
ICLP staff also participated in monitoring visits with ILO monitors. In ILAB’s opinion, this
section of the report should have been substantially revised to reflect this new information.

In the OIG official draft report, however, the new information provided by ICLP is presented
out of context and inaccurate conclusions are drawn. The OIG report alleges that ICLP did not
provide a point by point response to the allegations made regarding the ILAB funded child labor
project in the soccer ball industry in Pakistan and instead issued a mid-term report simply
stating how the monitoring system is designed to operate. This is inaccurate for several reasons.
First, ILCP requested that the ILO look into these allegations and treat each and every point
with the utmost degree of seriousness. Second, concerns raised by the allegations were
addressed in the ILO mid-term project review and in a follow up letter that provided detailed
responses to the specific allegations.


 OIG’s RESPONSE

We are not assuming or implying that there was no follow-up on the subject allegations. ILAB
acknowledges in its response that “each and every step taken by ICLP staff to follow up on the subject
allegations may not have been documented.” Our conclusions are based on:
(1) inadequate documentation to determine whether follow up occurred, and (2) documentation which
demonstrates that the allegations were not specifically addressed; instead, the mid-term review and the
responses to the allegations described how the system was designed to operate. For example, the
follow up letter referenced above identifies one allegation as “Employers are often tipped off when
monitors are en route to the stitching centers.” The response to this allegation included in the
referenced follow up letter is as follows: “All monitor visits are conducted by surprise. The choice of
which stitching centers are visited on a particular day is done randomly, by computer. The monitors are
given the names and locations of the centers to be visited every morning without prior knowledge.
Moreover, most of the stitching centers do not have telephones, which would allow them to receive an
early warning and hide their child laborers.”

In our view, the response to this allegation describes how the system is designed to operate without
investigating/addressing the specific allegation. Important questions which ICLP should have addressed
include: (1) What is the basis for the allegations? (2) Are the employers being tipped off? (3) If so, how
are the employers being tipped off? (4) Who is tipping off the employers? (5) How can this be
prevented in the future? There is inadequate documentation to support that ICLP addressed questions
such as these.

Again, we believe the inspection and verification systems provide the cornerstone for the credibility of
reported project achievements and results. It is vital that serious allegations be thoroughly investigated


                                                    12
and followed-up on, and any appropriate corrective actions be implemented. Further, any steps taken
should be adequately documented.

We consider this recommendation to be unresolved. The recommendation will be resolved and closed
pending the issuance of ILAB’s General Guidelines/operations manual which includes a section on
responding to allegations. Please provide the requested written documentation to this office by
December 22, 2000.


 Recommendation

 3. We recommend that ICLP:

    (a) Thoroughly investigate and follow-up on all serious allegations.
    (b) Implement any appropriate corrective actions.
    (c) Adequately document steps taken.




                                                  13
 FINDING 4 - PROJECT SUSTAINABILITY

We found that, overall, ICLP does a good job in delineating the roles of its partners in attempting to
achieve project sustainability. However, ICLP can go a step further by obtaining written agreements
from its project partners, which we believe will only enhance the probability that the partners will
uphold their responsibilities. Having a written agreement increases the likelihood that the partners will
commit to continuing the goals of the project once ICLP funding expires. A project is sustainable when
a country or community is able to continue the goals and objectives of the project on its own without
outside support.

We believe that ICLP can use lessons learned from previous projects to identify the specific
contributions to be made by each of the partners and include them in the written agreements. In many
of its projects, ICLP delineates what the partners are expected to do. ICLP needs to obtain written
agreements which commit the partners to carrying out their responsibilities. We recognize there may be
special circumstances which preclude ICLP from obtaining written agreements. In those special
circumstances, ICLP should fully document the reasons why written agreements could not be obtained.


 AGENCY COMMENTS

ILAB agrees with the importance of obtaining commitments by project partners to build capacity
and project sustainability. This recommendation is based on two ground-breaking agreements
that ILAB helped negotiate in Bangladesh and Pakistan. While these agreements worked well
within the context of those projects to reiterate the commitments of the respective partners, this
type of agreement may not be the appropriate mechanism to ensure sustainability of all project
results in all cases. This is why in ILAB’s September 1, 2000 memorandum, ILAB suggested
modifying the phrasing of the recommendation to include obtaining written agreements “as
appropriate.” It is important to maintain at least a minimum level of flexibility in order to apply
the most appropriate sustainability strategy on a case by case basis.


 OIG RESPONSE

We agree that it is important to maintain at least a minimum level of flexibility in order to apply the most
appropriate sustainability strategy on a case by case basis. That is why we previously incorporated
ILAB’s suggestion into the body of our finding by stating that “we recognize there may be special
circumstances which preclude ICLP from obtaining written agreements. In those special circumstances,
ICLP should fully document the reasons why written agreements could not be obtained.”

We consider this recommendation to be unresolved. The recommendation will be resolved and closed
pending the issuance of ILAB’s General Guidelines/operations manual which includes a section on


                                                    14
obtaining written agreements as one tool to increase the likelihood of project sustainability. Please
provide the requested written documentation to this office by December 22, 2000.


 Recommendation

 4. We recommend that ICLP obtain written agreements from project partners which clearly
    delineate each partner’s role in capacity building and project sustainability.




                                                   15
 FINDING 5 - OTHER MATTERS

ICLP officials provided us a copy of draft General Guidelines for Review of Project Documents, last
revised July 25, 2000. (See Exhibit 2.) According to these officials, the purpose of the General
Guidelines is to provide criteria for ICLP staff use in their review of project documents. Further, these
officials told us that the Guidelines is a living document which is in the process of being revised and
improved. While we commend ICLP for initiating the development of these draft guidelines, we believe
that ICLP should expand and strengthen the guidelines into an operations manual for staff use.
Following are a few suggestions.

   1. Incorporate our recommendations in the guidelines.
   2. State the overall purpose of the guidelines.
   3. Specify the roles of ICLP and ILO (and any other partners) for using the guidelines. The
      guidelines are very vague and confusing regarding the respective roles. There is little
      information regarding ICLP’s role in matters such as:
      a. Project proposal review and approval.
      b. Site visits and ICLP monitoring.
   4. Be consistent and clear in the use of terminology. In many instances, language is used
      interchangeably with several different meanings. For example, project management and
      management structure are used interchangeably. ICLP may need to expand on its definitions
      section to provide clarification to terms.

Considering the fact that ICLP is in the process of hiring additional staff, we believe that clear,
comprehensive guidelines are needed to increase overall ICLP staff efficiency and effectiveness.


 AGENCY COMMENTS

ICLP is in the process of finalizing the General Guidelines for Review of IPEC Project
Documents which will be incorporated into an operations manual for ICLP staff. ICLP has
already reached agreement with the ILO on a number of matters, including project funding,
oversight, monitoring, reporting, evaluation, and communications procedures, which will also be
incorporated in the ICLP operations manual. ICLP has requested but not received a copy of the
OIG’s Office of Analysis, Complaints, and Evaluations operations manual, or other appropriate
manuals, to be used as a model.


 OIG RESPONSE

We commend ILAB for taking steps to finalize the General Guidelines and incorporating the document
into an operations manual. As far as providing ILAB with a copy of the OIG’s Office of Analysis,


                                                    16
Complaints, and Evaluations operations manual, we suggest that ILAB work closely with OASAM to
identify and develop the necessary policies and procedures to be included in its operations manual. As
part of the MOU between OASAM and ILAB signed April 25, 2000, OASAM agreed to provide
advice and technical assistance during the pre-award and administration of all contracts and grants. We
believe it is more appropriate for OASAM to assist ILAB by providing this technical assistance.

We consider this recommendation to be unresolved. The recommendation will be resolved and closed
pending the issuance of ILAB’s General Guidelines/operations manual. Please provide the
requested written documentation to this office by December 22, 2000.


 Recommendation

 5. We recommend that ICLP expand and strengthen the draft General Guidelines into an operations
    manual for staff use.


_________________________________________

Contributors to this report:

Joan G. Wright
Amy C. Friedlander

Gregory D. Simmons, Director, Division of Evaluations and Inspections




                                                  17
